KLINE & SPECTER, PC
ATTORNEYS AT LAW
THE NINETEENTH FLOOR

1525 LOCUST STREET
PHILADELPHIA, PENNSYLVANIA 19102

________

215-772-1000

Charles L. Becker, Esquire
Direct Dial (215) 772-1394
Charles.becker@klinespecter.com

February 11, 2021
Via Electronic Filing and Regular Mail
Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: No. 20-1069, Janssen Pharmaceuticals, Inc. v. A.Y., et al.
Dear Mr. Harris:
I hereby enter my appearance as counsel of record for respondents A.Y. and Billy Ann
Yount, and respectfully seek an extension of the time in which to file a response to the certiorari
petition. The response is currently due on March 8, 2021. I request a 30-day extension to file
our response, such that the response would be due on April 7, 2021.
I have consulted with counsel for the petitioners, who advises that the petitioners have no
objection to this request.
I seek this additional thirty days in which to file our response on account of upcoming
deadlines in matters pending in the Pennsylvania and New Jersey courts and in the Third Circuit
Court of Appeals. I also currently have teaching obligations as a member of the adjunct faculty
at the University of Pennsylvania Carey School of Law. The requested extension will allow us
to balance these commitments with our obligations in the instant case.
Thank you for your attention to this matter.
Respectfully,

Charles L. Becker
cc:

Jay P. Lefkowitz

